OFFICE OF THE ATTORNEY GENERAL
Criminal Appeals Division, Tallahassee

TRISHA MEGGS PATE
Bureau Chief, Criminal Appeals
The Capitol
Tallahassee, Florida 32399-1050
Telephone (850) 414-3300
Fax (850) 922-6674

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

August 12, 2021
The Honorable Scott S. Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Re: Albon Diamond v. State of Florida,
Case No. 21-73
Dear Mr. Harris:
The State of Florida recently received a copy of the petitioner's petition for writ of
certiorari. Please be advised that the State of Florida will continue to follow its
long held position on these matters and will respectfully decline to answer petitions
filed in non-capital cases unless the Court requests a response. If the Court
requests a response, the State of Florida will provide one.
Respectfully submi

�@r

p·r.-':::"=:;,L--Tallahassee Criminal Appeals
Fla. Bar No. 0045489
(850)414-3300

cc: Michael Ufferman
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Rd.
Tallahassee, FL 3230 I

